BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
, United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, herebycertifythat 1 unbound copy
and 40 bound copies of the foregoing Brief of Iowa,
Louisiana, Minnesota, Montana, Oklahoma, South
Carolina, South Dakota, Texas, and Utah as Amici
Curiae in Support of Respondents in 20-157, Edward A.
Caniglia v. Robert F. Strom, et al., was sent via Next
Day Service to the U.S. Supreme Court, and via Next
Day and e-mail service to the following parties listed
below, this 18th day of February, 2021:
Shay Dvoretzky
Skadden, Arps, Slate, Meagher & Flom LLP
1440 New York Ave., NW
Washington, DC 20005
(202) 371-7370
shay.dvoretzky@skadden.com
Thomas William Lyons III
Strauss, Factor, Laing & Lyons
One Davol Square, Suite 305
Providence, RI 02903
(401) 456-0700
tlyons@stra ussfactor .com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
: Washington, DC _20005

Marc DeSisto
DeSisto Law
60 Ship Street
Providence, RI 02903
(401) 272-4442
marc@desistolaw.com

Counsel for Respondents
Melissa Holyoak
Utah Solicitor General
Counsel of Record
350 N. State Street, Suite 230
P.O. Box 142320
Salt Lake City, UT 84114-2320
(801) 538-9600
melissaholyoak@agutah.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 18, 2021.

Emilyu11ins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Pubic, State of Ohio
My Commission Expires
February 14, 2023

